                                                                 UNITED STATES DEPARTMENT OF COMMERCE
                                                                 The Assistant Secretary for Communications
                                                                 and Information
                                                                 Washington , D .C. 20230




                                                                    JAN ·1 1 2012


The Honorable Todd J. Zinser
Inspector General
United States Department of Commerce
1401 Constitution Avenue, N.W.
Washington, DC 20230

Dear Mr. Zinser:

This letter responds to your follow-on review dated January 10, 2012, related to the Broadband
Technology Opportunities Program (BTOP), entitled Misrepresentations Regarding Project
Readiness, Governance Structure Put at Risk the Success of the San Francisco Bay Area
Wire less Enhanced Broadband (Bay WEB) Project. I provide a point-by-point response below to
the concerns the Office oflnspector General (OIG) has raised about statements made two years
ago and the due diligence NTIA performed before deciding in July 2010 to award tllis grant. As
you point out, and as I agree, this project has faced challenges from the start. Accordingly, I
urge you and all of the parties involved in this project to work with NTIA on solving the issues
that face the project today so that it can bring the benefits of a public safety broadband network
to the citizens of the Bay Area consistent with prudent management of taxpayer dollars .

Improving Public Safety Broadband is a Key Statutory and Administration Priority

Public safety crises, such as the September 11, 2001 attacks and natural disasters like Hurricane
Katrina, highlight both the importance- and the unfmiunate shortcomings -of interoperable
public safety communications. The nation has struggled to overcome challenges to
implementing and deploying efficient and effective interoperability solutions for public safety in
the voice context for decades. 1 The emergence of wireless broadband technologies and
innovative broadband-based applications for public safety use in recent years now provides
significant opportunities to move beyond the interoperability shortcomings of public safety voice
communications and vastly improve the nation' s public safety capabilities. 2

While the BTOP public safety broadband awards and other Administration and Congressional
initiatives since that time have recently spurred new levels of consensus in the public safety




1
  See generally The White House - The Benefits ofTransitioning to a Nationwide Wireless Broadband Network for
Public Safety (June 20 11) available at http ://www. whitehouse.gov/sites/default/files/ uploads/publicsafetyreport.pdf.
2
  See id. at 10-11.
Page 2 of8


broadband community, such cohesion is relatively new. 3 For example, the Project 25 Initiative
(P25) began in the late 1980s to develop the then-cutting edge digital voice technology as an
interoperable solution for public safety voice communications. Although the program is much
improved now, lack of compatible equipment and expensive devices plagued it for over a
decade. 4 The autonomous licensing of public safety systems contributed critically to this
problem. 5 On 9/11, uncoordinated police and fire command communications structures
contributed to the tragic lack of communications at the World Trade Center. 6 And the situation
has not significantly improved after ten years.7 For this reason, public safety agencies have
advocated legislation creating a nationwide governance structure for the new broadband
teclmology at 700 MHz, which BayWEB is piloting. 8 NTIA suppmis this goal, but its realization
requires a legislative mandate and nationwide implementation.

The American Recovery and Reinvestment Act (Recovery Act) provided both a funding source
and a framework for testing ideas that would allow the Administration to determine the best
approach to facilitate a successful nationwide public safety broadband network. One of the
express statutory purposes of BTOP was to improve access to, and use of, broadband for public

3
   See, e.g., President Obama Details Plan to Win the Future through Expanded Wireless Access (Feb. 10, 2011)
 available at http://www.whitehouse. gov/the-press-office/20 11102/ 1O/president-obama-detai1s-plan-win-futme-
 tlu·ough-expanded-wireless-access; S. 911' 112lh Cong., 1Sl Sess., (2011)(S.911); S. 1323, 112lh Cong., 1st Sess.,
 (2011). Early adopters of public safety broadband technology have advocated joint efforts for common nationwide
 administration of certain technical requirements key to long-term interoperability. Comments of Early Adopters,
 FCC Docket No. 06-229 (filed Dec. 20, 2011), available at
 http://fiallfoss.fcc.gov/ecfs/document/view?id=7021751387 . However, lack of overarching governance and stable
 funding remain challenges to these incipient effmts.
 4
     U.S . Gov't Accountability Office, First Responders: Much Work Remains to Improve Communications
 lnteroperability at 4 (2007), available at http://www.gao.gov/new.items/d0730 !.pdf.
 5
   See, e.g., Weiser, P.J. and D. Hatfield. "In Pursuit of a Next Generation Network for Public Safety
 Communications." Commlaw Conspecus, at 111 (2007) available at
 http://commlaw.cua.edu/res/docs/06 Weiser 97-143 .pdf. See generally DHS SAFECOM, "lnteroperabi lity,"
 available at http://www.safecomprogram.gov/interoperability/Default. aspx.
 6
   See, e.g., The 9/11 Commission Report (July 2004) at 291-92, available at
 http://www.gpoaccess.gov/911 /pdf/fullreport.pdf; "9/11, Ten Years Later," APCO International, available at
 http://psc.apcointl.org/2011 /09/06/911-1 0-years-Jater/ (major finding of 9/11 Commission Report was that New
 York City agencies considered themselves autonomous and did not work together effectively). See also "DC Police
 Decision Jeopardizes Interoperability," Center for Health and Homeland Security, University of Maryland, available
 at http://www.mdchhs.com/blog/dc-police-decision-jeopardizes-interoperability (criticizing District of Columbia
 Police Department decision to encrypt communications because surrounding jurisdictions cannot afford to mirror);
 Frost & Sullivan, "Interoperable Communications for First Responders, available at
 http://www.corp.att.com/stateandlocal/docs/Interop.pdf (1982 plane crash into Fomteenth Street bridge revealed
 inability of Virginia, Maryland and District of Columbia jurisdictions to coordinate); Federal Emergency
.Management Agency, National Incident Management System, Training Session 18, document available via Google
 search ("Another thing of the not-too-distant past, and unfmtunately sometimes the present, is the infighting
 between public safety agencies (police, EMS and fire) and traffic management agencies (transportation, public
 works, public transit) and our differing views on the goals for a traffic accident" (quoting New York State fire
 official).
 7
   "The State oflnteroperability Ten Years After 911 1," Public Safety Communications (Sept. 7, 2011) available at
 http://psc.apcointl.org/20 11/09/07/the-state-of-interoperability-1 0-years-after-911 I ("So where does cmrununications
 interoperability stand 10 years after 9111? Not much further than we were on Sept. 10, 2001.").
 8
   See, e.g., Testimony of Jeffrey D. Johnson, Chief Executive Officer, Western Fire Chiefs Association, Before the
 House Committee on Energy and Conunerce, Subcommittee on Communications and Technology(May 25, 2011),
 available at http:l/republicans.energycomm erce.house.gov/Medi a/file/Hearings/Telecom/052511 /Johnson .pdf.
Page 3 of8


safety agencies. 9 In May 2010, very late in the BTOP pre-award process, the Federal
Communications Commission (FCC) granted waiver authority to certain entities to use the 700
MHz public safety broadband spectrum, which ~rovided a timely opportunity for NTIA to fund
an initial set of700 MHz public safety projects. 0 Thus, NTIA was able to award seven 700
MHz public safety grants to allow us to investigate the novel issues and problems that may arise
with a nationwide "interoperable public safety broadband network and to learn from different
approaches to 700 MHz projects through BTOP.

NTIA has realized throughout this process that the cutting-edge 700 MHz interoperable wireless
broadband public safety pilot projects are complex and challenging to implement. There is no
question that a strong governance model related to 700 MHz public safety broadband networks is
key to creating a strong and successful national interoperable network for public safety purposes.
The governance framework related to interoperable networks is a risk element. Given public
safety communications' history, the least risky approach for NTIA in the grant program would
have been to do nothing. But NTIA believes it had a broader responsibility to move these types
of projects forward to solve a long-standing and critical national problem and an opportunity to
do so responsibly through the Recovery Act.

Given the Challenges Associated with Implementing BTOP and the History of Public Safety,
NT/A Exercised Common Sense in Its Due Diligence

Both NTIA and grant applicants faced challenges associated with BTOP. The Recovery Act was
enacted on February 11, 2009 and required NTIA to create a new grant program consistent with
statutory requirements, accept competitive applications, and award over $4 billion dollars in
grant funds within 19 months. This, in tum, required potential awardees to plan and organize
project proposals within extremely constrained timeframes. In particular, for the second round
ofBTOP funding, which included the BayWEB project, NTIA released the Notice of Funds
Availability (NOFA) on January 22, 2010, and opened the application window on February 16,
2010 with a filing deadline of March 26, 2010. These timeframes put significant pressure on all
involved, but they were necessary to meet the statutory timeframes and objective of spurring the
nation's economic recovery.

Given the circumstances, NTIA's challenge was to administer the program under tight deadlines,
addressing significant due diligence responsibilities while delivering the program on time. To
that end, NTIA developed a broad-ranging and multi-factored application review process. 11
Certainly, NTIA had an important role to exercise due diligence over the applications and, in
doing so, devoted resources to evaluating the material representations in the applications,
including performing detailed assessments of the application's proposed project benefits and
service areas; analyzing the project's technical viability; analyzing the project's budget and
financial sustainability; reviewing audit findings and credit checks; evaluating potential

9 American Recovery and Reinvestment Act of2009, Pub. L. No. 111-5, 123 Stat. 115 Section 6001(b)(4) (2009).
(Recovery Act).
10 Notice ofFunds Availability; Reopening of Application Filing Window for Broadband Technology Opportunities

Program Comprehensive Community Infrastructure Projects, 75 Fed Reg 27984 (May 19, 2010).
11 See BTOP Quarterly Status Report (Feb. 2010) at 3 available at

http://www.ntia.doc.gov/files/ntia/publications/btop_ quarterlyreport_ 0303201 O.pdf (containing an overview of the
application review process.) .
Page 4 of8


environmental and historic preservation impacts of the project; validating the proposal's
feasibility, consistency, and accuracy; and reviewing information supplied by existing service
providers to evaluate the existing level of broadband service in the project area.

In conducting due diligence, NTIA did not expect applications to be completely mistake-free. It
was reasonable to expect some minor level of inaccuracy, to expect applicants to frame their
plans in the context of best-case scenarios, and for some claims to be overcome by events or
require modification in the light of changing circumstances on the ground. NTIA diligently
examined claims that were material to the project's success, but could not possibly have
investigated and verified each and every unchallenged assertion and claim during the application
review process. To do so would have come at the cost of failing to meet the statutory award
deadline of September 30,2010 and the statutory purposes of the Recovery Act. This is
particularly true where, as was the case with BayWEB, NTIA staff interacted with jurisdictions
who gave the agency no reason during due diligence to believe anything might have been amiss
or might have required further investigation.

Under the circumstances, NTIA created a highly efficient and effective grant program. Indeed,
the OIG previously praised BTOP's pre-award application review process as "vigorous." 12 The
pre-award review process has been largely validated by time, as seen in the high-quality projects
funded, the benefits already being realized by the American people, and the low rate of project
failure to date.

NTIA Did Not Rely on Any of the Statements Questioned by the OIG

The three categories of statements questioned by the OIG raise no new issues. NTIA fully
examined these matters after receiving specific complaints from the County of Santa Clara and
the City of San Jose in the fall of 2010, long after NTIA had announced the award to Motorola.
NTIA concluded, in a letter dated February 24, 2011, that it had conducted thorough due
diligence on the proposed project and had not relied on any of the claimed misrepresentations as
a basis for awarding the project. 13 A quick review of each of the categories identified by the
OIG demonstrates that none constitutes a material misrepresentation in the context of all that
NTIA knew about the.project and the challenges it would likely face through implementation.

          Governance Structure. NTIA agrees with the OIG that challenges related to completing
the governance structure experienced by the Bay Area communities may have contributed to an
initial delay in the construction of the project. But it is not accurate to suggest that statements
made in the application about the status of the governance _structure misled NTIA into awarding
the grant. Beyond the application's strengths as it went through BTOP's established competitive
grants process, the overall application and the unique characteristics of the Bay Area made it a
good fit as a 700 MHz pilot project. NTIA knew that a great deal of additional work would be
needed to get the governance right and was not led astray by claims or statements made in the

12 NT/A Must Continue to Improve its Program Management and Pre-Award Process for its Broadband Grants
Program Final Report No. ARR-19842-1 at 7 (April2010).
13 See Letter to Mr. Jeffrey Smith, County Executive, Santa Clara and Hon. Chuck Reed, Mayor of San Jose from

NTIA Assistant Secretary Lawrence E. Strickling (Feb. 24, 2011) {NTIA Response Letter).
Page 5 of8


BayWEB application. Given the timeframes and circumstances surrounding BTOP in general
and the ability to fund 700 MHz projects in particular, NTIA did not assume the Bay Area had
everything figured out and thus did not rely on the statements that OIG asserts were false or
inaccurate.

The standard OIG seems to be imposing on this project- that it should have had an ironclad
governance structure put in place during the two-month application window - is not realistic, not
appropriate, and does not reflect the decade of struggles that characterized public safety after
9/11. Moreover, the need for additional work to finalize the governance structure, while
certainly a management risk, did not pose a significant financial risk for the misuse of taxpayer
dollars, particularly given the overall context that the cost of building the needed nationwide
network is expected to be upwards of $6.5 billion. 14 As this was a threshold issue, if the parties
could not come together on governance, it was likely that only a small amount of federal dollars
would be spent on the project- a conclusion borne out by the fact that, to date, only one percent
of the award's federal funds have been expended on the project. On the other hand, if the public-
private partnership model proves successful, significant progress will have been made toward
fmding solutions and best practices for the much-needed national interoperable public safety
wireless broadband network.

        Shovel Ready Sites. Next, the OIG questions certain statements in the application
relating to project sites being "shovel ready." However, as the OIG concedes, these statements
cannot be condemned as an intentional or legal misrepresentation because neither the Recovery
Act nor our NOFA required sites to be "shovel ready." Indeed, NTIA did not even define the
term in the operative documents for the program. Moreover, as stated in the February 24, 2011
letter, "we consider site upgrades to be a normal part of the scope of funded projects," and NTIA
did not award the BayWEB project grant "in reliance on every site's being already fully-
equipped for the new network." 15

         Authority to Use Broadband Spectrum. Finally, the OIG questions the application's
claims regarding the BayRICS Policy Group's authority and involvement with respect to the 700
MHz spectrum to be used in the project. But as NTIA pointed out a year ago, "as it was a matter
of public record, we were aware of the identity of the applicants seeking an FCC waiver to use
the 700 MHz spectrum" in the Bay Area. 16 · In fact, as the OIG points out, NTIA did extensive
due diligence on this issue before making the decision to award the grant, so the agency could
not possibly have been misled by any unclear statements in the application. Each of the three
cities that submitted the FCC spectrum waiver request submitted a separate letter to NTIA
committing to authorize the Alameda County Sheriffs Office to enter into the requisite lease
agreement. On June 4, 2010, the City of Oakland wrote:

        If the BayWEB application is successful and awarded the BTOP grant, the City of
        Oakland (the "City") will participate in the BayWEB project. More specifically,
        the City will enter into the requisite lease agreement with the Public safety
        Spectrum Trust Corporation ("PSST") so that the 700 MHz spectrum shall be

14 American Jobs Act of 2011, S. 1549 and H.R. 12 available at http://thomas.loc.gov/cgi-bin/query/z?c 112:H.R.12:.
15 See NTIA Response Letter at 2.
16 /d.
Page 6 of8


        used for the public safety system described in the BayWEB BTOP application.
        Alternative, if permitted by the PSST, the City may authorize, pending legal
        review and Council approval, the Alameda County Sheriffs Office, as executive
        sponsor and Regional Mutual Aid Coordinator for Region 2, the Northern
        California Coastal Region, on behalf of the BayRICS ("BayRICS") to enter into
        the requisite lease agreement. 17

On June 9, 2010, the City and County of San Francisco wrote:

        This letter is to confirm that the City and County of San Francisco will enter into
        -or, if permitted by the PSST, authorize the Sheriffto enter into- an appropriate
        lease agreement with the PSST for the 700 MHz public safety spectrum in the San
        Francisco Bay Area for the use by and benefit of the ten counties that comprise
        the Bay Area UASI. In addition, if Motorola's BTOP grant is awarded, the City
        and County of San Francisco will join with the Sheriffto enter into additional
        agreements with Motorola that will allow Motorola to build, own, operate, and
        maintain the proposed public safety system, which public safety entities in the ten
        counties that comprise the Bay Area UASI will utilize to provide services
        consistent with their lease agreement with the PSST. 18

Even the City of San Jose, which only after we announced the grant award surfaced the concerns
addressed now by the OIG, wrote very specifically on June 7, 2010 as follows:

        If this application is successful and Motorola is awarded the BTOP grant funds,
        the City of San Jose (the "City") plans to participate in the BayWEB project.
        More specifically, the City will negotiate in good faith to enter into the requisite
        lease agreement with the Public Safety Spectrum Trust Corporation ("PSST") so
        that the 700 MHz spectrum may be used for the public safety system described in
        Motorola's BTOP application. 19

Given these strong statements of support, and given the urgency felt by communities and federal
agencies to make progress on public safety networks across the nation, NTIA felt confident then
-and remains confident now- that the BayWEB project will be able to use the 700 MHz
spectrum. The OIG now suggests that NTIA should have waited to verify that formal
authorization was granted by the cities before moving forward with its award decision.
However, as the OIG notes, each of the letters was conditioned on the award of the grant to
Motorola, so postponing the award decision would itselfhave delayed resolution of this issue.




17 Letter from Oakland City Administrator Dan Lindheim to Joseph Bissonnette ofNTIA (June 4, 2010).
18 Letter from City and County of San Francisco Police Department Assistant Chief/Chief of Staff Morris Tabak to
Joseph Bissonnette ofNTIA (June 9, 2010).
19 Letter from San Jose Deputy City Manager Deanna J. Santana to Joseph Bissonnette ofNTIA (June 7, 2010).
Page 7 of8


Concerns Raised Regarding the February 2010 RFP Process

OIG's follow-on report addresses concerns raised by Santa Clara and San Jose regarding
Motorola's involvement in the BayWEB project. 20 The OIG ultimately determined that the
problem was "largely one of perception." This conclusion in essence affirms the investigation
conducted over a year ago by the California Emergency Management Agency (CalEMA). 21
Moreover, nothing in BTOP rules required any applicant to submit to any review or selection
process by any or all of the Bay Area communities prior to submitting its application.

NTIA Agrees That Letters ofSupport of Potential BTOP Projects from Public Officials Must
he Put in Context, But Disagrees that Its Reliance on Such Letters Contributed to Deficiencies
in the Application Process

NTIA stands behind its consideration of letters of support from public officials as part of the
BTOP application review process. Such expressions of broad support from well-known and
trusted public entities were valuable, and NTIA reasonably had confidence that these letters
provided strong indications of each community's commitment to a project's success.

NTIA does agree with OIG that such letters must be put in their proper context and, further,
believes it did so. As discussed above, the BTOP due diligence process was multi-faceted and
determinations to make BTOP awards were based on a variety of factors. Letters of support
alone were not determinative of a decision to award a project. That said, we do not agree with
the OIG's suggestion now that NTIA should have required letters of support for BTOP
applications to contain more specific fiscal and/or political commitments. The outpouring of
support shown for the BayWEB project helped give NTIA the necessary confidence to proceed
with the project, knowing that governance would be a continuing issue. Also, as previously
noted, at the time of the decision to award, NTIA had no indication from Santa Clara and San
Jose that they had concerns with the project. In fact, their letters of support, both in the
application and provided during due diligence, reflected just the opposite.

NTIA is Focusing on Post-Award Project Administration and Oversight

NTIA believes that the most efficient, effective, and best use of program resources at this time is
to focus on post-award project administration and oversight. NTIA implemented a rigorous
monitoring and oversight plan for BTOP grants to ensure projects are completed on time, stay
within budget, and deliver the promised benefits to the communities they serve. NTIA has
achieved a substantial level of oversight, awardee education, and technical assistance despite
having limited federal staff and budget to perform this work. The agency's oversight plan is
both rigorous and cost-effective, with annual administrative expenses representing less than one
percent per year of the amount of the total grant portfolio.



20 Significantly, although the events, about which Santa Clara and San Jose raised concerns now occurred in early

2010, neither Santa Clara nor San Jose raised this issue with NTIA in the application process or during our due
diligence contacts with these communities in the summer of2010.
21 See Letter from Brendan A. Murphy, Director of Grants Management, California Emergency Management

Agency to Laura Phillips, Executive Director, Bay Area Urban Area Security Initiative (Oct. 14, 2010).
Page 8 of8


The OIG previously has characterized the BTOP post-award monitoring framework as
reasonable.22 NTIA continually works to improve its project monitoring and oversight and has
incorporated all suggestions made to date by OIG to its satisfaction. 23 Indeed, the BayWEB
project receives the highest level of monitoring and significant staff attention under the BTOP
post-award framework. Additionally, taking NTIA's role as steward of taxpayer funds seriously,
the agency has worked to ensure that minimal federal grant funds are expended as Motorola
continues to work with the Bay Area jurisdictions to finalize the critical Build, Own, Operate,
and Maintain (BOOM) agreement with the local public safety authorities.

In conclusion, it is important to our national agenda to continue to try to solve the challenges of
public safety communications using the tools at hand, such as Recovery Act grants. NTIA's
approval of the BayWEB grant, made after appropriate due diligence, was based on a full
appreciation of all material facts available at the time. Now, NTIA must continue to focus its
efforts and resources on the challenges existing today in the post-award context. NTIA will
continue to work with you as it catTies out this impmiant program to expand broadband
capabilities in the United States, create jobs, and lay a new foundation for economic growth in
America. IfNTIA may be of further assistance, please contact Milton Brown, NTIA's Liaison to
the OIG, at (202) 482-1853 .


                                                           Sincerely,


                                                       ~"'~~·
                                                          Lawrence E. Strickling             ·   D
cc:     Ann Eilers, Principal Assistant Inspector General for Audit and Evaluation
        Anthony Wilhelm, Deputy Associate Administrator, Office of Telecommunications and
        Information Applications, NTIA
        Milton Brown, NTIA Audit Liaison
        Chris Rose, Senior Auditor, Recovery Act Task Force, OIG
        Aimee Meacham, NTIA




22
   OIG, NT!A Has an Established Foundation to Oversee BTOP Awards but Better Execution of Monitoring is
Needed at 13 (Nov. 11 , 2011).
23
   See id. at 16.
